TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Affordable Care Act: While Much Has
                   Been Accomplished, the Extent of Additional
                    Controls Needed to Implement Tax-Exempt
                         Hospital Provisions Is Uncertain



                                             June 21, 2012

                                Reference Number: 2012-13-070




   This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
    and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:
2(f) = Risk of Circumvention of Agency Regulation or Statute




 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


AFFORDABLE CARE ACT: WHILE                            Organizations function to fully implement
MUCH HAS BEEN ACCOMPLISHED, THE                       controls because legal guidance has not been
EXTENT OF ADDITIONAL CONTROLS                         published. This guidance, which is currently
NEEDED TO IMPLEMENT TAX-EXEMPT                        under review, would provide the Exempt
                                                      Organizations function with a basis for
HOSPITAL PROVISIONS IS UNCERTAIN
                                                      identifying additional controls needed to
                                                      determine whether tax-exempt hospitals comply
Highlights                                            with the ACA.
                                                      In addition, the Department of the Treasury will
Final Report issued on June 21, 2012                  be required in the near future to send its first
                                                      annual report to Congress regarding tax-exempt
Highlights of Reference Number: 2012-13-070           hospitals. The IRS is responsible for working
to the Internal Revenue Service Acting                with the Department of Health and Human
Commissioner, Tax Exempt and Government               Services to gather the data for this report. While
Entities Division.                                    communication has been established, the format
                                                      and timing of receipt of data have not been
IMPACT ON TAXPAYERS                                   formalized.
The Patient Protection and Affordable Care Act        WHAT TIGTA RECOMMENDED
(ACA) contains provisions that impact the IRS
and tax-exempt hospital organizations. The IRS        TIGTA recommended that the Director, Exempt
has made progress establishing controls to            Organizations, work with the Department of the
assess tax-exempt hospital organization               Treasury to establish a Memorandum of
compliance. However, additional work will be          Understanding with the Department of Health
required once legal guidance is published. Until      and Human Services. The Memorandum of
guidance is published, the public cannot be           Understanding should take into consideration
assured that the IRS has implemented all              when information for the annual report to
controls to ensure compliance with                    Congress should be received by the IRS and the
ACA provisions designed to protect those              proper format of the data to ensure it will be
served by tax-exempt hospitals.                       timely and usable for the report to Congress.

WHY TIGTA DID THE AUDIT                               In response to our report, IRS management
                                                      agreed with our recommendation. The IRS
This audit was initiated as part of TIGTA’s efforts   plans to work with the Department of the
to evaluate the IRS’s plans for implementing the      Treasury to establish a Memorandum of
various ACA tax provisions. This review               Understanding with the Department of Health
addresses the major management challenge of           and Human Services that takes into
Implementing Health Care and Other Tax Law            consideration when information for the annual
Changes. The overall objective was to evaluate        report to Congress should be received and the
the IRS’s progress in establishing controls to        proper format of the data to ensure it will be
determine whether tax-exempt hospitals comply         timely and usable for the report to Congress.
with select provisions of the ACA.
WHAT TIGTA FOUND
The IRS has made progress establishing
controls to determine whether tax-exempt
hospitals comply with provisions of the ACA and
has already opened reviews of the community
benefit activities of approximately 1,700 health
care organizations. However, it is difficult to
determine at this point how much additional
work will be required of the Exempt
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 June 21, 2012


 MEMORANDUM FOR ACTING COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                ENTITIES DIVISION


 FROM:                        Michael E. McKenney
                              Acting Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Affordable Care Act: While Much Has Been
                              Accomplished, the Extent of Additional Controls Needed to Implement
                              Tax-Exempt Hospital Provisions Is Uncertain (Audit # 201110317)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) progress in
 establishing controls to determine whether tax-exempt hospitals comply with Section 9007 of the
 Patient Protection and Affordable Care Act.1 This review is included in our Fiscal Year 2012
 Annual Audit Plan and addresses the major management challenge of Implementing Health Care
 and Other Tax Law Changes.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation. Please contact me at (202) 622-6510 if you have questions or
 Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.




 1
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
 amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                      Affordable Care Act: While Much Has Been Accomplished, the
                      Extent of Additional Controls Needed to Implement Tax-Exempt
                                      Hospital Provisions Is Uncertain




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Initial Controls Have Been Established, but Additional Work Is Planned
          After Legal Guidance Is Published ............................................................... Page 3
          Formal Agreements Have Not Been Negotiated Regarding Data Needs
          for the Annual Report to Congress ............................................................... Page 9
                    Recommendation 1:.......................................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Patient Protection and Affordable Care Act
          Provisions Affecting Tax-Exempt Hospitals and the
          Internal Revenue Service .............................................................................. Page 14
          Appendix V – Revised Return of Organization Exempt From
          Income Tax, Schedule H, Hospitals, Part V ................................................. Page 17
          Appendix VI – Management’s Response to the Draft Report ...................... Page 22
      Affordable Care Act: While Much Has Been Accomplished, the
      Extent of Additional Controls Needed to Implement Tax-Exempt
                      Hospital Provisions Is Uncertain




                     Abbreviations

ACA            Patient Protection and Affordable Care Act
EO             Exempt Organizations
IRS            Internal Revenue Service
                  Affordable Care Act: While Much Has Been Accomplished, the
                  Extent of Additional Controls Needed to Implement Tax-Exempt
                                  Hospital Provisions Is Uncertain




                                            Background

The Patient Protection and Affordable Care Act1 (ACA) contains provisions that impact the Internal
Revenue Service (IRS) and tax-exempt hospital organizations covered under Internal Revenue
Code Section (§) 501(c)(3).2 Charities, educational institutions, and religious organizations are
among those entities exempt from Federal income tax under § 501(c)(3). Although tax-exempt
hospitals are not specifically listed in this Code section, they have long been recognized as
charitable organizations when certain conditions are met. Specifically, a hospital must be organized
and operated exclusively for charitable purposes, and may not be operated, directly or indirectly, for
the benefit of private interests.
In addition to complying with the requirements of § 501(c)(3), tax-exempt hospitals must also
satisfy four new exemption requirements in § 9007(a) of the ACA.3 Specifically, hospital
organizations must:
    1. Conduct a Community Health Needs
       Assessment every three years and adopt an                         The ACA requires tax-exempt
       implementation strategy to meet the community                     hospitals to satisfy four new
       health needs.                                                      requirements to keep their
                                                                              tax-exempt status.
    2. Establish a written financial assistance policy and
       a written policy requiring the organization to
       provide care for emergency medical conditions to
       individuals regardless of their eligibility under the
       financial assistance policy.
    3. Limit amounts charged for emergency or other
       medically necessary care that is provided to
       individuals eligible for assistance under the
       organization’s financial assistance policy.
    4. Forego extraordinary collection actions against an individual before the organization has
       made reasonable efforts to determine whether the individual is eligible for assistance under
       the hospital organization’s financial assistance policy.


1
  Pub. L. No. 111-148, 124 Stat. 119 (2010), (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
2
  I.R.C. § 501(c)(3) (2006).
3
  § 9007(a) of the ACA added § 501(r) to the Internal Revenue Code, which imposes four new requirements a
hospital organization must meet to qualify for tax exemption in tax years beginning after March 23, 2010. See
Appendix IV for additional information on requirements of the ACA.
                                                                                                           Page 1
                  Affordable Care Act: While Much Has Been Accomplished, the
                  Extent of Additional Controls Needed to Implement Tax-Exempt
                                  Hospital Provisions Is Uncertain



In addition, the IRS is required to review community benefit activities of each hospital organization
at least once every three years for each hospital organization described in § 501(r). These reviews
include items such as whether the hospital facility meets the community health needs assessment,
the financial assistance policy, the limitation of charges, and the billing and collection
requirements. Also, § 9007 of the ACA requires the Secretary of the Treasury, in consultation
with the Secretary of Health and Human Services, to submit an annual report to Congress on the
level of charity care, bad debt expenses, and the unreimbursed costs of
means-tested4 and non-means-tested government programs.
The Department of Health and Human Services is                            The Department of Health and
responsible for the administration of health care policy issue           Human Services is responsible
changes, and the IRS is responsible for implementation of                  for health care policy issue
tax law changes included in the legislation. Implementing                    changes, and the IRS is
new tax law legislation requires changes to communications,              responsible for tax law changes
                                                                                involving the ACA.
guidance, employee training, education and outreach, and
forms and publications. It also requires designing a
program to ensure hospitals comply with the changes. The
IRS’s Exempt Organizations (EO) function within the Tax
Exempt and Government Entities Division is responsible
for ensuring that tax-exempt hospitals comply with § 9007
of the ACA.
This review focused on ACA provisions impacting
tax-exempt hospitals and the IRS and did not encompass a
review of all ACA provisions. As we were concluding our
fieldwork in January 2012, new regulations affecting
tax-exempt hospitals were not finalized. This review was
performed at the EO function, Tax Exempt and Government Entities Division Headquarters, in
Washington, D.C., during the period August 2011 through January 2012. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




4
  A “means-tested government program” is a government program for which eligibility depends on the recipient’s
income or asset level.
                                                                                                         Page 2
                Affordable Care Act: While Much Has Been Accomplished, the
                Extent of Additional Controls Needed to Implement Tax-Exempt
                                Hospital Provisions Is Uncertain




                                 Results of Review

The IRS has made progress establishing controls to determine whether tax-exempt hospitals
comply with provisions of the ACA and has already opened reviews of the community benefit
activities of approximately 1,700 health care organizations. However, it is difficult to determine
at this point how much additional work will be required of the EO function to fully implement
controls because legal guidance has not been published. This guidance, which is currently under
review, would provide the EO function with a basis for identifying additional controls needed to
determine whether tax-exempt hospitals comply with the ACA. Until guidance is published, the
public cannot be assured that the IRS has implemented all controls to ensure tax-exempt hospital
compliance with ACA provisions designed to protect those served by these hospitals.
In addition, the Department of the Treasury will be required in the near future to send its first
annual report to Congress regarding tax-exempt hospitals. The IRS is responsible for working
with the Department of Health and Human Services to gather the data for this report. While
communication has been established, the format and timing of receipt of data have not been
formalized. Because the IRS does not have experience working with this data and may need to
quickly assemble the information, we believe the IRS should work with the Department of the
Treasury to establish a Memorandum of Understanding with the Department of Health and
Human Services regarding data needs.

Initial Controls Have Been Established, but Additional Work Is
Planned After Legal Guidance Is Published
After the ACA was enacted, EO function employees participated on teams that identified issues
affecting tax-exempt hospitals and developed action plans to address the new requirements. This
included 1) establishing a process to identify the population of tax-exempt hospitals affected by
the legislation, 2) conducting community benefit reviews of tax-exempt hospitals, 3) making
changes to forms, 4) developing and conducting training of IRS employees, 5) educating the
tax-exempt hospital community about new ACA requirements, and 6) soliciting comments from
the tax-exempt sector and collaborating with IRS Counsel on new regulations. Specifically, the
following actions were taken:

Identification of tax-exempt hospitals
Prior to passage of the ACA, the IRS did not maintain a database that identified all tax-exempt
hospitals. Therefore, the EO function organized an effort to identify the universe of tax-exempt
hospitals. This was significant because the IRS needs to know the universe of tax-exempt
hospitals to be able to conduct community benefit reviews of every tax-exempt hospital at least

                                                                                            Page 3
                   Affordable Care Act: While Much Has Been Accomplished, the
                   Extent of Additional Controls Needed to Implement Tax-Exempt
                                   Hospital Provisions Is Uncertain



once every three years, as required by the ACA. The
                                                                              The EO function identified from
EO function accomplished this by reviewing information                          various sources more than
from its own Return Inventory and Classification System;5                     3,300 tax-exempt hospitals that
a Medicare/Medicaid Internet website that contains                                   are subject to new
hospital names, addresses, and ownership information; and                      tax-exemption requirements.
State and District of Columbia Internet websites containing
licensed and registered hospitals. This manual,
labor-intensive process involved seven employees and took
approximately 1.5 years to identify the universe of
3,377 tax-exempt hospitals. This effort will need to
continue due to hospital mergers and the creation of new
hospitals. IRS management plans to add an indicator to the
Master File6 in Fiscal Year7 2013 to make identification of
tax-exempt hospitals easier in the future.

Reviews of community benefit activities
The EO function developed a method to review the community benefit activities of tax-exempt
hospitals. A review of each tax-exempt hospital is required to be conducted once every
three years. The IRS will conduct these reviews in phases over three years. Phase one is
complete and covered approximately 1,700 health care organizations.8 A lead sheet was created
to document the results of the examiner’s review of the community benefit activities and a
Microsoft Office Access database was created to track the data from the lead sheets. As part of
the review, the examiner may recommend an ACA-related or non-ACA-related compliance
check9 or examination. At the conclusion of our audit, examiners had not recommended any
compliance checks or examinations related to ACA provisions.10




5
  This computer system provides access to return and filer information related to the filing and processing of
tax-exempt organization returns.
6
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
7
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
8
  We did not review any of the approximately 1,700 ACA community benefit reviews completed by the
EO function.
9
  A compliance check is a contact with a tax-exempt organization that involves a review of filed information and tax
returns of the entity. A compliance check does not directly relate to determining a tax liability for any particular tax
period, and a tax-exempt organization may legally choose not to participate in a compliance check.
10
   Eight non-ACA examinations and two non-ACA compliance checks were recommended. These 10 referrals
involve other areas of tax law including filing requirements and taxable income.
                                                                                                                Page 4
                  Affordable Care Act: While Much Has Been Accomplished, the
                  Extent of Additional Controls Needed to Implement Tax-Exempt
                                  Hospital Provisions Is Uncertain



Changes to forms
Form 990, Return of Organization Exempt From Income Tax, Schedule H, Hospitals, was
revised for Tax Year11 2010 because § 9007 of the ACA requires a hospital organization to meet
four additional exemption requirements for each of its hospital facilities.12 Specifically,
     1. Part V, Section A (Hospital Facilities) was added to require hospital organizations to list
        each of their hospital facilities that, at any time during the tax year, were required to be
        licensed, registered, or similarly recognized as a hospital under State law.
     2. Part V, Section B (Facility Policies and Practices) was added to gather information on
        hospital organizations’ compliance with the four additional exemption requirements of
        § 9007. The hospital organization must complete a separate Section B (Facility Policies
        and Practices) for each of its hospital facilities listed in Part V Section A. Section B was
        optional for Tax Year 2010.
     3. Part V, Section C (Other Health Care Facilities That Are Not Licensed, Registered, or
        Similarly Recognized as a Hospital Facility) was added to require the hospital
        organization to list all of its non-hospital health care facilities that it operated during the
        tax year, whether or not such facilities were required to be licensed or registered under
        State law.
In addition, an automated process was developed to identify Forms 990 that are received at an
IRS campus13 with incomplete information on Schedule H. When incomplete forms are
identified, Wage and Investment Division14 employees at the campus will correspond with the
tax-exempt hospitals to obtain the missing data. EO function employees that conduct community
benefit reviews of tax-exempt hospital organizations also manually review the data entered by
tax-exempt hospitals on Schedule H and check publicly available sources, ***2(f)***********
**********2(f)*************************.

IRS employee training
The EO function developed training materials and offered training sessions related to § 9007 of
the ACA and how it affects the EO function. Topics included an introduction to tax-exempt
hospitals, the four new exemption requirements, and new information required for the revised
Form 990, Schedule H. General training sessions were held for all EO function employees and

11
   A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
12
   See Appendix V for a copy of the revised Form 990, Schedule H, Part V.
13
   The campuses process paper and electronic submissions, correct errors, and forward data to the Computing
Centers for analysis and posting to taxpayer accounts.
14
   The IRS is organized into divisions serving groups of taxpayers. The IRS’s four divisions include the
Tax Exempt and Government Entities, the Large Business and International, the Wage and Investment, and the
Small Business/Self-Employed Divisions.
                                                                                                          Page 5
                   Affordable Care Act: While Much Has Been Accomplished, the
                   Extent of Additional Controls Needed to Implement Tax-Exempt
                                   Hospital Provisions Is Uncertain



more detailed training sessions were offered to those employees who review applications for
tax-exempt status and examine returns filed by tax-exempt organizations.

Tax-exempt hospital community education
To help educate the hospital community on the Form 990, Schedule H changes, the Tax Exempt
and Government Entities Division presented webinars to health associations in Fiscal
Years 2010, 2011, and 2012. These webinars included discussions on changes to the Form 990,
Schedule H, Part V and presented the attendees with various resources, including a website
address, for additional information. The IRS also established a link on its Internet website
(IRS.gov) directing tax-exempt customers to an ACA Tax Provision Internet web page. This
web page contains links to the various provisions within the ACA, including a section on the
additional requirements for tax-exempt hospitals.

Public comments and new regulations                                        The IRS provided guidance and
Part of the process of assuring compliance with legal                        solicited comments from the
                                                                            tax-exempt hospital sector by
guidelines is translating the specifics of new legislation                          issuing notices.
into detailed regulations, rules, and procedures that
provide guidance to IRS customers. Regulations
interpret and give directions on complying with the law,
but are first published in proposed form in a Notice of
Proposed Rulemaking.15 After public input is fully
considered, final or temporary regulations are published
in the Federal Register.16 To obtain comments from the
tax-exempt sector and begin providing guidance on
ACA provisions concerning tax-exempt hospitals, the
IRS issued three notices.
     1. Notice 2010-39, Request for Comments Regarding Additional Requirements for
        Tax-Exempt Hospitals, was issued on May 27, 2010. The purpose of the Notice was to
        solicit comments on requirements for the Community Health Needs Assessment,
        Financial Assistance Policy, Limitation on Charges, and Billing and Collection.
        Comments were due to the IRS by July 22, 2010.



15
   A form of IRS guidance which is a public pronouncement that may contain guidance that involves substantive
interpretations of the Internal Revenue Code or other provisions of the law. According to IRS Counsel, taxpayers
generally may not rely on proposed regulations for planning purposes, except if there are no applicable final or
temporary regulations in force and there is an express statement in the proposed regulations that taxpayers may rely
on them currently.
16
   The Federal Register is the official daily publication for rules, proposed rules, and notices of Federal agencies and
organizations, as well as executive orders and other presidential documents.
                                                                                                                Page 6
                  Affordable Care Act: While Much Has Been Accomplished, the
                  Extent of Additional Controls Needed to Implement Tax-Exempt
                                  Hospital Provisions Is Uncertain



     2. Notice 2011-52, Notice and Request for Comments Regarding the Community Health
        Needs Assessment Requirements for Tax-exempt Hospitals, was issued on July 7, 2011.
        Customer comments from Notice 2010-39 were considered when developing
        Notice 2011-52. The purpose of Notice 2011-52 was to describe Community Health
        Needs Assessment requirements that the Department of the Treasury and the IRS
        anticipate will be included in draft regulations, solicit additional Community Health
        Needs Assessment comments, and allow hospitals to start the process of conducting a
        Community Health Needs Assessment and developing implementation strategies in
        advance of the effective date.
        As shown in Figure 1, the IRS provided guidance on the following topics.
                Figure 1: Analysis of Guidance Provided in Notice 2011-52
             Guidance Topics Where the IRS Requested General Public Comments
          Documentation of a Community Health Needs Assessment.
          Excise tax on failures to meet the Community Health Needs Assessment
          requirements.
          Reporting requirements (changes to Form 990) related to Community Health
          Needs Assessments.
          Effective date for hospital organizations to conduct a Community Health Needs
          Assessment and adopt an implementation strategy is the last day of its first
          taxable year beginning after March 23, 2012.
             Guidance Topics Where the IRS Requested Specific Public Comments
          Hospital organizations required to meet the Community Health Needs
          Assessment requirements.
          How Community Health Needs Assessments and implementation strategies
          should be implemented for hospital organizations with multiple hospital
          facilities.
          How and when a Community Health Needs Assessment is “conducted.”17
          Defining community served by a hospital facility.
          Defining persons who represent the broad interests of the community.
          Making a Community Health Needs Assessment widely available to the public.


17
   A Community Health Needs Assessment is considered conducted in the taxable year that the written report of its
findings is made widely available to the public.
                                                                                                           Page 7
                    Affordable Care Act: While Much Has Been Accomplished, the
                    Extent of Additional Controls Needed to Implement Tax-Exempt
                                    Hospital Provisions Is Uncertain



               Guidance Topics Where the IRS Requested Specific Public Comment
           Implementation strategy for Community Health Needs Assessments.
           How and when an implementation strategy should be adopted.
         Source: Treasury Inspector General for Tax Administration analysis of Notice 2011-52.

         Although the IRS did not request specific comments on four topics for Notice 2011-52, if
         received, the comments would be considered. Public comments for Notice 2011-52 were
         due to the IRS by September 23, 2011, and were still under review at the conclusion of
         our audit work.
     3. Notice 2012-4, Certain Filing Changes for Tax-Exempt Organizations, was issued on
        January 17, 2012, to notify tax-exempt hospital organizations that beginning with
        Tax Year 2011, Form 990, Schedule H, Part V, Section B (Part V.B.)18 is no longer
        optional, with the exception of lines 1 through 7.19 The IRS has considered public input
        received regarding Part V.B., and has made revisions for Tax Year 2011, and will
        consider additional revisions in the future.
Regulations are in draft form to address three of the four new exemption requirements including:
1) Financial Assistance and Emergency Medical Care; 2) Limitation on Charges; and 3) Billing
and Collection Practices Requirements. Additionally, the regulations will address the definition
of a hospital facility and a hospital organization. These draft regulations are currently being
reviewed. Until the regulations are published, IRS management cannot complete training for
examination employees and cannot revise examination programs to determine if tax-exempt
hospitals comply with the ACA. Because the IRS has not fully developed controls, we cannot
determine if the controls will be adequate to identify tax-exempt hospitals noncompliant with the
ACA or if there may be gaps in coverage between the IRS and the Department of Health and
Human Services that would result in not satisfying the intent of Congress.




18
   Schedule H must be completed by an organization that operated at least one hospital facility during the tax year.
A hospital facility includes any facility that is, or is required to be, licensed, registered, or similarly recognized as a
hospital under State law, and any other organization that the Secretary of the Treasury determines has the provision
of hospital care as its principal function or purpose constituting the basis for its tax-exempt status under § 501(c)(3),
without regard to § 501(r).
19
   Form 990, Schedule H, Part V, Section B, lines 1 through 7 pertain to the Community Health Needs Assessment,
which are effective only for tax years beginning after March 23, 2012. However, some hospital organizations may
have tax years that start before March 23, 2012. Therefore, lines 1 through 7 are not mandatory for all hospital
organizations for Tax Year 2012.
                                                                                                                   Page 8
                Affordable Care Act: While Much Has Been Accomplished, the
                Extent of Additional Controls Needed to Implement Tax-Exempt
                                Hospital Provisions Is Uncertain



Formal Agreements Have Not Been Negotiated Regarding Data Needs
for the Annual Report to Congress
EO function management stated that the IRS will be
                                                                A formalized agreement between
responsible for submitting to the Department of the              the Department of the Treasury
Treasury information for the annual report to Congress on         and the Department of Health
the level of charity care, bad debt expense, and                  and Human Services on data
unreimbursed costs of means-tested and non-means-tested           needs would assist the IRS in
government programs. The Department of Health and                gathering and assembling data
                                                                     for the annual report to
Human Services will provide this information to the IRS                     Congress.
for the annual report. Although EO function management
has coordinated with the Department of Health and Human
Services to obtain this information, the EO function has no
control over the timing of receipt or format of the
information.
EO function management has set a goal of August 2012
for submitting information to the Department of the
Treasury for the first report. In order to meet this timeline,
the IRS needs to receive input from the Department of
Health and Human Services in July 2012. In addition, because the EO function is not familiar
with the Department of Health and Human Services data, this information needs to be received in
a format where it can be inserted into the report with minimal analysis or manipulation by the
EO function. If this data are not received timely or in a proper format, the report to Congress could
either be late or contain inaccurate information on the level of charity care, bad debt expenses, and
the unreimbursed costs of means-tested and non-means-tested government programs.

Recommendation
Recommendation 1: The Director, EO, should work with the Department of the Treasury to
establish a Memorandum of Understanding with the Department of Health and Human Services.
The Memorandum of Understanding should take into consideration when information for the
annual report to Congress should be received and the proper format of the data to ensure it will
be timely and usable for the report to Congress.
       Management’s Response: IRS management agreed with this recommendation.
       IRS management plans to work with the Department of the Treasury to establish a
       Memorandum of Understanding with the Department of Health and Human Services that
       takes into consideration when information for the annual report to Congress should be
       received and the proper format of the data to ensure it will be timely and usable for the
       report to Congress.


                                                                                              Page 9
                  Affordable Care Act: While Much Has Been Accomplished, the
                  Extent of Additional Controls Needed to Implement Tax-Exempt
                                  Hospital Provisions Is Uncertain



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the IRS’s progress in establishing controls to determine
whether tax-exempt hospitals comply with § 9007 of the ACA.
I.      Identified provisions within § 9007 of the ACA that impact tax-exempt hospitals.
II.     Identified controls established by IRS management to determine whether tax-exempt
        hospitals comply with § 9007 of the ACA.
        A. Through discussions with Tax Exempt and Government Entities Division
           management, identified actions planned or taken to implement § 9007 of the ACA.
        B. Reviewed the Legislative Analysis, Tracking, and Implementation Services1 action
           plan to identify steps planned or taken to implement § 9007 of the ACA.
        C. Determined whether a Memorandum of Understanding was developed with the
           Department of Health and Human Services outlining responsibility for § 9007 of the
           ACA.
        D. Assessed the IRS’s plans to identify the universe of tax-exempt hospitals covered by
           § 9007 of the ACA.
        E. Determined the status of implementing the Community Health Needs Assessment
           provision of the ACA (effective date after March 23, 2012) that impacts tax-exempt
           hospitals.
        F. Determined the status of implementing the financial assistance and emergency
           medical care requirements of the ACA (effective date after March 23, 2010) that
           impacts tax-exempt hospitals.
        G. Determined the status of implementing the limitation on charges requirements of the
           ACA (effective date after March 23, 2010) that impacts tax-exempt hospitals.
        H. Determined the status of implementing the billing and collection requirements of the
           ACA (effective date after March 23, 2010) that impacts tax-exempt hospitals.
        I. Identified the status of the IRS’s efforts to review community benefits activities
           (effective date after March 23, 2010) that impacts tax-exempt hospitals.


1
 Legislative Analysis, Tracking, and Implementation Services is responsible for managing the agency-wide
implementation planning and monitoring of legislation having a significant impact on the IRS.
                                                                                                       Page 10
               Affordable Care Act: While Much Has Been Accomplished, the
               Extent of Additional Controls Needed to Implement Tax-Exempt
                               Hospital Provisions Is Uncertain



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS Notices, action plans, changes to
Form 990, Return of Organization Exempt From Income Tax, and training materials. We
evaluated these controls by reviewing and analyzing documentation and interviewing
IRS management.




                                                                                        Page 11
              Affordable Care Act: While Much Has Been Accomplished, the
              Extent of Additional Controls Needed to Implement Tax-Exempt
                              Hospital Provisions Is Uncertain



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Peggy A. Anketell, Lead Auditor
Dana M. Karaffa, Auditor
Michael A. McGovern, Auditor




                                                                                  Page 12
              Affordable Care Act: While Much Has Been Accomplished, the
              Extent of Additional Controls Needed to Implement Tax-Exempt
                              Hospital Provisions Is Uncertain



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 13
                   Affordable Care Act: While Much Has Been Accomplished, the
                   Extent of Additional Controls Needed to Implement Tax-Exempt
                                   Hospital Provisions Is Uncertain



                                                                                               Appendix IV

         Patient Protection and Affordable Care Act
     Provisions Affecting Tax-Exempt Hospitals and the
                  Internal Revenue Service
The Patient Protection and Affordable Care Act1 (ACA) contains provisions that impact the IRS
and tax-exempt hospital organizations. Figures 1 and 2 provide four new requirements impacting
tax-exempt hospitals and two new requirements impacting the IRS concerning ACA tax-exempt
hospital provisions.
                Figure 1: ACA Provisions Impacting Tax-Exempt Hospitals

                                               Requirement #1
    Community                   A hospital organization is required to conduct a Community Health Needs
    Health Needs                Assessment every three years and adopt an implementation strategy to meet the
                                community health needs identified through such assessment. The Community
    Assessment                  Health Needs Assessment must take into account input from persons who
                                represent the broad interests of the community served by the hospital facility,
                                including those with special knowledge of or expertise in public health, and must
                                be made widely available to the public. The effective date is taxable years after
                                March 23, 2012.
                                Hospital organizations are responsible for defining their community on
                                Schedule H, Hospitals, of Form 990, Return of Organization Exempt From
                                Income Tax. The IRS has determined that hospital organizations do not define
                                their communities consistently. In July 2011, the IRS issued Notice 2011-52,
                                Notice and Request for Comments Regarding the Community Health Needs
                                Assessment Requirements for Tax-exempt Hospitals, describing specific
                                provisions related to the Community Health Needs Assessment requirements and
                                requesting comments on these provisions. Hospital organizations could submit
                                comments on or before September 23, 2011. The IRS is considering the
                                comments it received in response to Notice 2011-52 as it works on further
                                guidance on the Community Health Needs Assessment requirements.
                                Hospital organizations that fail to meet the Community Health Needs Assessment
                                requirements for any taxable year will be subject to a $50,000 excise tax.2


1
  Pub. L. No. 111-148, 124 Stat. 119 (2010), (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
2
  § 9007(b) of the ACA added § 4959 to the Internal Revenue Code, which imposes an excise tax for failures to meet
the Community Health Needs Assessment requirement of § 501(r)(3). Hospital organizations will be charged for
each violation, on a facility by facility basis.
                                                                                                          Page 14
                  Affordable Care Act: While Much Has Been Accomplished, the
                  Extent of Additional Controls Needed to Implement Tax-Exempt
                                  Hospital Provisions Is Uncertain



                                               Requirement #2
 Policies for Financial        Hospital organizations are required to establish a written financial assistance
 Assistance and                policy that includes the following:
 Emergency Medical                Eligibility criteria for financial assistance and whether such assistance
 Care                              includes free or discounted care.
                                  The basis for calculating amounts charged to patients.
                                  The method of applying for financial assistance.
                                  In the case of an organization that does not have a separate billing and
                                   collections policy, the actions the organization may take in the event of
                                   nonpayment, including collections action and reporting to credit agencies.
                                  Measures to widely publicize the policy within their hospital community.
                               Additionally, hospital organizations are required to have a written policy requiring
                               the organization to provide, without discrimination, care for emergency medical
                               conditions to individuals regardless of their eligibility under the financial
                               assistance policy.

                                               Requirement #3
 Limitation on                 Hospital organizations are required to limit amounts charged for emergency or
 Charges                       other medically necessary care that is provided to individuals eligible for
                               assistance under the organization’s financial assistance policy to not more than the
                               amounts generally billed to individuals who have insurance covering such care.
                               Additionally, hospital organizations are prohibited from using gross charges.

                                               Requirement #4
 Billing and Collection        Hospital organizations are required to forego extraordinary collection actions
                               against an individual before the organization has made reasonable efforts to
                               determine whether the individual is eligible for assistance under the hospital
                               organization’s financial assistance policy. Extraordinary collection actions
                               include lawsuits, liens on residences, arrests, or other similar collection processes.

Source: Treasury Inspector General for Tax Administration analysis of ACA provisions impacting tax-exempt
hospitals.




                                                                                                               Page 15
                     Affordable Care Act: While Much Has Been Accomplished, the
                     Extent of Additional Controls Needed to Implement Tax-Exempt
                                     Hospital Provisions Is Uncertain



                             Figure 2: ACA Provisions Impacting the IRS

                                                 Requirement #1
 Community Benefit               The IRS must review the community benefit activities of each hospital organization
 Activities                      at least once every three years. In Revenue Ruling 69-545,3 the IRS recognized
                                 that the promotion of health is considered to be a charitable purpose under the
                                 general law of charity. The community benefit standard is the test used by the IRS
                                 for determining whether a hospital is organized and operated for the charitable
                                 purpose of promoting health. A hospital generally will meet the community benefit
                                 standard if it has a board of directors composed of prominent citizens drawn from
                                 the community; has a medical staff consistent with the size and nature of its
                                 facilities that is open to all qualified physicians in the area; operates a full-time
                                 emergency room open to all persons without regard to their ability to pay; and
                                 provides hospital care for everyone in the community able to pay the cost either
                                 themselves, through private health insurance, or with the aid of public programs
                                 such as Medicare.

                                                 Requirement #2
 Charity Care Report             The Secretary of the Treasury, in consultation with the Secretary of Health and
                                 Human Services, shall submit an annual report to Congress on the levels of charity
                                 care, bad-debt expenses, and the unreimbursed costs for services provided with
                                 respect to means-tested and non-means-tested government programs; and
                                 information with respect to private tax-exempt hospitals regarding costs incurred
                                 for community benefit activities. Additionally, no later than five years after
                                 enactment of the ACA (March 23, 2010), the Secretary of the Treasury, in
                                 consultation with the Secretary of Health and Human Services, shall conduct a
                                 study and submit a report on trends identified from the annual reports.

Source: Treasury Inspector General for Tax Administration analysis of ACA tax-exempt hospital provisions
impacting the IRS.




 3
     Rev. Rul. 69-545, 1969-2 C.B. 117.
                                                                                                             Page 16
       Affordable Care Act: While Much Has Been Accomplished, the
       Extent of Additional Controls Needed to Implement Tax-Exempt
                       Hospital Provisions Is Uncertain



                                                        Appendix V

Revised Return of Organization Exempt From Income
         Tax, Schedule H, Hospitals, Part V




                                                              Page 17
Affordable Care Act: While Much Has Been Accomplished, the
Extent of Additional Controls Needed to Implement Tax-Exempt
                Hospital Provisions Is Uncertain




                                                       Page 18
Affordable Care Act: While Much Has Been Accomplished, the
Extent of Additional Controls Needed to Implement Tax-Exempt
                Hospital Provisions Is Uncertain




                                                       Page 19
Affordable Care Act: While Much Has Been Accomplished, the
Extent of Additional Controls Needed to Implement Tax-Exempt
                Hospital Provisions Is Uncertain




                                                       Page 20
Affordable Care Act: While Much Has Been Accomplished, the
Extent of Additional Controls Needed to Implement Tax-Exempt
                Hospital Provisions Is Uncertain




                                                       Page 21
   Affordable Care Act: While Much Has Been Accomplished, the
   Extent of Additional Controls Needed to Implement Tax-Exempt
                   Hospital Provisions Is Uncertain



                                                   Appendix VI

Management’s Response to the Draft Report




                                                          Page 22
Affordable Care Act: While Much Has Been Accomplished, the
Extent of Additional Controls Needed to Implement Tax-Exempt
                Hospital Provisions Is Uncertain




                                                       Page 23
